<html>
<title> - [H.A.S.C. No. 113-29]THE READINESS POSTURE OF THE U.S. ARMY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 113-29]

                         THE READINESS POSTURE

                            OF THE U.S. ARMY

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 16, 2013



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  _____

                      U.S. GOVERNMENT PRINTING OFFICE

  80-758                   WASHINGTON : 2013
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9dfaedf2ddfee8eee9f5f8f1edb3fef2f0b3">[email&#160;protected]</a>  














                       SUBCOMMITTEE ON READINESS

                 ROBERT J. WITTMAN, Virginia, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
VICKY HARTZLER, Missouri             JOE COURTNEY, Connecticut
AUSTIN SCOTT, Georgia                DAVID LOEBSACK, Iowa
KRISTI L. NOEM, South Dakota         COLLEEN W. HANABUSA, Hawaii
J. RANDY FORBES, Virginia            JACKIE SPEIER, California
FRANK A. LoBIONDO, New Jersey        RON BARBER, Arizona
MIKE ROGERS, Alabama                 CAROL SHEA-PORTER, New Hampshire
DOUG LAMBORN, Colorado               WILLIAM L. ENYART, Illinois
E. SCOTT RIGELL, Virginia            PETE P. GALLEGO, Texas
STEVEN M. PALAZZO, Mississippi
                Ryan Crumpler, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                         Nicholas Rodman, Clerk













                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Tuesday, April 16, 2013, The Readiness Posture of the U.S. Army..     1

Appendix:

Tuesday, April 16, 2013..........................................    33
                              ----------                              

                        TUESDAY, APRIL 16, 2013
                 THE READINESS POSTURE OF THE U.S. ARMY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Readiness............................     1

                               WITNESSES

Fountain, BG Walter E., USARNG, Acting Deputy Director, U.S. Army 
  National Guard.................................................     9
Huggins, LTG James L., Jr., USA, Deputy Chief of Staff for 
  Operations, U.S. Army..........................................     4
Mason, LTG Raymond V., USA, Deputy Chief of Staff for Logistics, 
  U.S. Army......................................................     6
Visot, MG Luis R., USAR, Deputy Commanding General for 
  Operations, U.S. Army Reserve..................................     8

                                APPENDIX

Prepared Statements:

    Fountain, BG Walter E........................................    54
    Huggins, LTG James L., Jr., joint with LTG Raymond V. Mason 
      and MG Luis R. Visot.......................................    39
    Wittman, Hon. Robert J.......................................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Enyart...................................................    77
    Mr. Rogers...................................................    77
    Mr. Scott....................................................    77

Questions Submitted by Members Post Hearing:

    Mr. Barber...................................................    84
    Mr. LoBiondo.................................................    84
    Mr. Wittman..................................................    81
 
                 THE READINESS POSTURE OF THE U.S. ARMY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                           Washington, DC, Tuesday, April 16, 2013.
    The subcommittee met, pursuant to call, at 2:26 p.m., in 
room 2212, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wittman. I call to order the Subcommittee on Readiness 
of the House Armed Services Committee.
    I want to welcome this afternoon this panel to our hearing 
and I would like to thank all of you for taking the time to 
address us today concerning the readiness posture for the 
United States Army.
    And as you know over the past 12 years, the Army--Active, 
the Guard, and Reserve--has deployed more than 1.1 million 
soldiers to combat with more than 4,500 giving the last full 
measure of devotion to this country.
    More than 32,000 soldiers have been wounded, 9,000 
requiring long-term care. In that time, soldiers have earned 
more than 14,000 awards for valor to include 7 Medals of Honor 
and 22 Distinguished Service Crosses.
    The Army's contribution to our Nation's security have been 
numerous and continue around the world today. This hearing 
comes at a time of strategic inflection for the Army.
    After more than a decade, the protracted counterinsurgency 
operations and cyclic combat operations in the Middle East, the 
Army must find a way to return to full spectrum operations, 
reset and reconstitute the force, responsibly draw out an 
operation in Afghanistan, and fully develop its role under the 
new defense strategic guidance.
    The Army must also find a way to do all of this under a 
tightening budget and the compounding talent challenges of 
sequestration, continuing fiscal challenges in Afghanistan, and 
to do so with a smaller force.
    To discuss how the Army plans to meet the challenges of 
tomorrow in this austere budgetary environment, we have with us 
this afternoon Lieutenant General James L. Huggins, Jr., the 
Army's Deputy Chief of Staff for Operations; Lieutenant General 
Raymond V. Mason, the Army's Deputy Chief of Staff for 
Logistics; Major General Luis Visot, the Deputy Commanding 
General for Operations of the U.S. Army Reserve; and Brigadier 
General Walter E. Fountain, the Acting Deputy Director of the 
U.S. Army National Guard.
    Gentlemen, thank you all very much for being here with us 
today and I appreciate your thoughtful statements as we head 
forward in your insights on today's Army and the challenges 
that we have ahead. So with that, I am going to go to my 
Ranking Member, Ms. Bordallo, for her opening statement.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 37.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Mr. Chairman, thank you very much.
    General Huggins, Mason, Visot, and Fountain, I thank you 
all for your testimony and your service to our Nation, and I 
look forward to our dialogue this afternoon.
    This is the first in the series of hearings that will dive 
into some level of detail about the readiness issues for each 
of the Services. Moreover, this is also our first hearing 
subsequent to the President's budget release as well as passage 
of the fiscal year 2013 Consolidated Appropriations Act, so we 
can hopefully have a more thorough and data-driven discussion.
    The 2011 strategic guidance, the effects of sequestration 
and the planned withdrawal of the U.S. forces from Afghanistan 
place a significant pressure on all our military components, 
but particularly the Army.
    The Army has planned on reducing its end strength to 
490,000 soldiers over the next several years. Yet, still must 
equip and train each soldier according to its force generation 
model.
    The Army has been at the forefront of the wars over the 
last decade, but now has an opportunity to reset the force in a 
time of great financial strain. It is under this context that 
we must evaluate the readiness of our army for current missions 
in Afghanistan and potential contingencies in the coming years.
    So, I hope that our witnesses will be able to touch on the 
strategic risk and the lack of strategic depth because of the 
inability to train nondeploying forces as a result of 
sequestration and general budget constraints.
    I am particularly concerned about this risk and its impact 
on the National Guard and their ability to meet Title 32 or 
Homeland Defense requirements. We must all understand that all 
deploying forces to Afghanistan or elsewhere will be fully 
trained and equipped but subcommittee members have to 
understand the level of risk that we are embarking on with 
nondeployed forces.
    So in this vein, I hope our witnesses can also comment on 
the potential impact of shifting the current force generation 
model for Active Duty soldiers from a 36-month cycle to a 24-
month cycle. What will be the impact on their quality of life 
and ability to train soldiers?
    And I am also curious to understand what further changes 
there might be to the force generation model as a result of the 
refocus on the Asia-Pacific region. The current force 
generation model focuses primarily on meeting the requirements 
of the COIN [Counterinsurgency] strategy.
    So given the unique environments and wide-ranging 
environments that exist in the Asia-Pacific region, what is the 
Army doing to incorporate that into any force generation model 
as well as their trading scenarios?
    I am also concerned about the current budget situation's 
potential impact on maintenance of Army equipment. As we 
retrograde from Afghanistan, we will need significant funds to 
get our equipment back to CONUS [Continental United States] and 
then reset. Given the immediate nature of the cuts imposed by 
sequestration, what is the short and medium term impact of 
sequestration to maintaining our current equipment?
    So I hope that our witnesses can touch on the cost growth 
over the next several years to maintaining and resetting our 
equipment as a result of this significant cut in the budget 
caused by sequestration. What gaps in maintenance will we have 
as a result of some of the immediate deferrals and does this 
have an impact on the training of soldiers?
    And finally, gentlemen, I hope our witnesses will comment 
on the current BCT [Brigade Combat Team], restationing and 
composition changes that are ongoing. I am particularly focused 
on how this assessment may impact the missions and requirements 
of the Army National Guard.
    The Army National Guard has a mixture of infantry and 
combat support elements. Do our witnesses see this changing 
substantial as a result of this BCT composition review or as a 
result of the 2011 strategic guidance?
    So again, I look forward to the witnesses' testimony, and 
Mr. Chairman, I yield back.
    Mr. Wittman. Thank you, Ms. Bordallo. Thank you so much for 
your opening comments and for your leadership as our Ranking 
Member. I would like to--again gentlemen, thank you very much 
for being here and I look forward to your thoughtful statements 
and your insights into our Nation's army.
    General Huggins, General Fountain, and General Visot, I 
understand that for each of you, this is your first time 
testifying before the subcommittee, and I want to welcome you, 
and General Mason I understand that this is a time again, back 
before us, so welcome back.
    As you know, last year, this subcommittee spent a great 
deal of time exploring our current state of readiness in 
discussing how we remain prepared to meet the challenges we are 
likely to face in the future.
    Time and time again, we heard of a force being described as 
being on the ragged edge. Today we again explore readiness, 
this time in the context of how the Army is reshaping itself to 
be ready for the future challenges and conflicts of the 21st 
century.
    The administration continues to argue that we can afford a 
smaller force with a smaller army--an army with less capacity 
so long as we have a more capable one. To enable a skilled 
superior army, one that can meet the Nation's needs and respond 
to a wide range of threats, will require timely, thoughtful and 
targeted investments.
    The Army must spend every dollar wisely as it seeks to 
remain ready, anything less will result in a far-reaching and 
long-lasting implication for the Army and for this Nation. 
Congress has a responsibility and a constitutional duty to 
train and equip our soldiers to ensure they are ready for the 
job we have asked them to do.
    I look forward to learning about what investments and 
readiness you are making and how the Army plans to meet its 
mission in these challenging times. And gentlemen, with that, 
we will go to your opening testimony.
    I want you to know that your full prepared remarks will be 
entered in for the record, so I know we have those. I would 
urge you to keep your opening comments to 3 minutes and that 
gives us the advantage of time here for members to ask 
questions.
    So if you will do that, I will assure you that the full 
text of your comments will be entered into the record and if 
you can abide by that then that helps us get right to questions 
which is where I think the members would like to focus their 
time.
    So, with that, General Huggins, we will begin with you.

 STATEMENT OF LTG JAMES L. HUGGINS, JR., USA, DEPUTY CHIEF OF 
                STAFF FOR OPERATIONS, U.S. ARMY

    General Huggins. Chairman Wittman, Ranking Member Bordallo 
and distinguished members of the committee, thank you for the 
opportunity to appear before you today along with my colleagues 
to discuss the readiness of the United States Army and the way 
ahead.
    On behalf of Secretary of the Army, the Honorable John 
McHugh, and Chief of Staff of the Army, General Odierno, thank 
you for your service and your support and your commitment to 
our soldiers, civilians and their families.
    Today we are here and honored to represent the nearly 1.2 
million talented, experienced, well-led, and professional 
soldiers, and testify on the critical issues of readiness for 
our total army force, Army Active, National Guard, and the 
United States Army Reserve.
    Upfront, the Army is facing severe fiscal challenges. It 
has serious implications on our ability to provide trained and 
ready forces for the Nation. Sequestration and shortfalls in 
overseas contingency operating funds pose substantial impacts 
to the readiness throughout the remainder of fiscal year 2014, 
but also even more grave is the outlook for fiscal year 2014 
readiness given the cost we have deferred and pushed into 
fiscal year 2014 to make it through fiscal year 2013.
    This in effect compounds the risk in 2014. And after more 
than a decade of conflict in Iraq and Afghanistan, the Nation 
and our army are in a period of transition--a turning point 
characterized by a fiscally constrained environment and a 
global and security environment that is more complex and 
uncertain than any time since the end of World War II, and as 
the tragic events yesterday in Boston unfolded, it might also 
indicate that the future is even more unstable.
    And I would like to take just a moment and recognize the 
great work of our Army National Guard brothers there in that 
moment of great tragedy for our American brothers in Boston.
    This discussion on readiness is perfectly timed and the 
magnitude of the challenges ahead have serious implications on 
our ability to provide trained and ready forces for the Nation. 
If sequestration is implemented without significant changes 
from fiscal year 2014 to fiscal year 2021, the readiness of our 
total force will be gravely impacted.
    The Army simply will not be able to meet--will not have the 
resources to meet the defense strategic guidance and we risk 
becoming a hollow force. Now, we have talked about ragged edge 
before, but the hollow force really is indicative of three 
critical areas there that must be balanced--end strength, 
readiness, and modernization. By staying balanced in those 
three areas is the only way we can make sure we have a force 
capable of completing a wide array of missions.
    As each of you know, the Army's primary purpose is to fight 
and win our Nation's wars and we are fully committed to that 
nonnegotiable obligation. As a total force, again Army Active, 
National Guard, and Army Reserve, we have led this effort 
performing missions again in Iraq and Afghanistan with great 
proficiency and professionalism.
    Our Army's readiness is also a key deterrent as well as a 
hedge against strategic risk during unpredictable times. Your 
support has been critical to the successes we have had in the 
past but will be more so in the future.
    Continued investment in our readiness is a strategic 
necessity. However, to meet our sequestered targets, the Army 
will curtail approximately 80 percent of our ground forces for 
the rest--training for the rest of the fiscal year. This will 
create secondary shortfalls in critical specialty areas such as 
aviation, intelligence, and engineering. The latter will impact 
approximately 2,300 soldiers in their initial entry training.
    And then operating under numerous continuing resolutions 
has only compounded the effects of sequestration and is 
affecting the training for fiscal year 2014 as we look ahead 
and beyond.
    And finally, we will also be forced to look at cancelling 
all but two of the remaining decisive action brigade level 
training events at our combat maneuver centers unless 
additional funds can be made available.
    The Army understands the seriousness of our Nation's fiscal 
situations, however we need legislative solution that averts 
sequestration and gives our leaders the flexibility to work 
with the resources you provide to shape the soldiers for the 
future.
    The magnitude of today's fiscal constraints and uncertainty 
is not lost on the Army--senior military and civilian leaders 
understand Army must be good stewards of our resources and tax 
dollars that are provided to us.
    However, sequestration, fiscal constraints, shortfalls and 
overseas contingency operating funds have caused us to do what 
matters with less as opposed to doing more with less. However, 
doing what matters with less cannot come at the price of the 
overall readiness of our total army.
    Our current readiness, the Army is committed to balancing 
the current global demands for security with a realistic 
strategy that maintains American land power, America's 
dominance in land power remains unchallenged, and it is 
imperative that the Army's total force remain ready and 
relevant in this persistent engagement era.
    Our priorities as we work through the challenges today are 
our Homeland Defense, Operation Enduring Freedom, and that is 
to the approximately 60,000 soldiers that are there as well as 
the next to deploy soldiers, and those others that are deployed 
in other contingency response missions around the world.
    We are also focusing on maintaining them in training as 
well as properly equipping them and having them prepare to 
execute other on-call missions. We must also provide for the 
readiness--high levels of readiness for our forces that are in 
Korea as well as our global response force which is our hedge 
to respond to no notice contingencies or crises.
    As the G-3/5/7 [Deputy Chief of Staff for Operations, 
Plans, and Training], you have my commitment that I will ensure 
the leaders and soldiers are properly trained and ready for a 
full range of these missions. However, it will take a 
reprioritization of resources.
    At the end of the day, the Army must remain well-trained, 
equipped and ready. The Nation's strategic land power maintains 
its credible advantage over the adversaries because of our 
capacity, our capabilities and modernization efforts, and our 
readiness.
    Mr. Chairman, members of the committee, I want to conclude 
my statement by telling you all that it is an honor to serve 
this great Nation as I have for the past 32 years, and it is a 
privilege to be here today with my colleagues, and thank you 
again for the opportunity to appear before the committee, and I 
look forward to your questions.
    [The joint prepared statement of General Huggins, General 
Mason, and General Visot can be found in the Appendix on page 
39.]
    Mr. Wittman. Very good. General Huggins, thank you.
    General Mason.

 STATEMENT OF LTG RAYMOND V. MASON, USA, DEPUTY CHIEF OF STAFF 
                    FOR LOGISTICS, U.S. ARMY

    General Mason. Well, good afternoon, Chairman Wittman, 
Ranking Member Bordello and distinguished members of the 
subcommittee.
    Thank you for holding this hearing. I want to just touch on 
a few areas of readiness that are on the top of my list and I 
imagine are on the top of your list as well and that would be 
equipment retrograde from Afghanistan, reset of that equipment, 
and the Army's organic industrial base.
    Like my fellow witnesses, my top priority is to ensure our 
soldiers in harm's way have what they need to succeed and those 
next to deploy are trained, equipped, and ready because they 
continue to have a challenging and dangerous mission ahead of 
them.
    In the next 20 months, our focus will be on closing bases 
and bringing out $20 billion worth of army equipment from 
Afghanistan. The logisticians did a terrific job in 
retrograding the equipment from Iraq.
    But bringing home the equipment from Afghanistan is orders 
of magnitude harder. Moving equipment out through the northern 
distribution network and the Pakistan ground lines of 
communication, while improving, is still a slow and fragile 
process. So our primary method continues to be the more costly, 
multimodal air alternative.
    After a dozen years of war, it is important that we 
complete our mission right. Over the years, our citizens and 
the Congress have entrusted us with billions of dollars worth 
of modern equipment.
    We need to ensure, especially during these times of fiscal 
constraints, that the equipment we need for whatever the Nation 
asks for us next is reset and ready and back in the hands of 
our soldiers. To make sure that that equipment is ready, we 
need a fully funded reset program that continues for 3 years 
after the last piece of equipment comes back from Afghanistan.
    The reset program you have funded to date has enabled this 
army to maintain operational readiness rates in theater for our 
ground fleet at 90 percent or better, and for our aviation 
fleet at 75 percent or better. However, that equipment has 
experienced significant wear and tear from operating from over 
a decade in the extreme temperatures and rugged mountains of 
Afghanistan.
    In fiscal year 2013, we expect to reset approximately 
100,000 items at our industrial facilities and 60,000 pieces of 
equipment on site where our units are stationed or what we call 
``field maintenance.'' That includes over 400 aircraft.
    However, sequestration will cause us to defer some of these 
requirements to future fiscal years which I call compounding 
risk and it is going to have a negative impact on our combat 
readiness both in the near-, mid-, and long term.
    As I believe the members of the subcommittee are aware, 
this year we published our Organic Industrial Base Strategic 
Plan to help us transition our depots to rationalize those and 
our arsenals from war to peace time operations.
    This plan gives us a framework to make informed, optimized 
decisions so that our army and the Nation will continue to have 
a modern, reliable, cost-effective, and highly responsive 
industrial base enterprise for years to come.
    Sequestration cuts, and I would add annual continuing 
resolutions, fall heavily on the Army's operations and 
maintenance accounts. Deferring maintenance will cost 
production gaps in the industrial base and create breaks in the 
supply chain recovering--causing--requiring years to recover.
    These gaps greatly impact equipment readiness, industrial 
partnerships and sub-vendors supporting the supply chain, those 
second-, third-, and fourth-tier suppliers, and many of those 
are small businesses. It also takes a heavy toll on our highly 
skilled civilian workforce.
    So in closing, I very much appreciate working with you and 
your staffs as we continue to sustain a high-quality, all-
volunteer army that remains the most decisive land force in the 
world, and I am also very honored to be here after 34 years in 
the service to be in front of this committee. So thank you very 
much. I look forward to your questions.
    Mr. Wittman. Very good.
    Thank you, General Mason.
    General Visot.

STATEMENT OF MG LUIS R. VISOT, USAR, DEPUTY COMMANDING GENERAL 
               FOR OPERATIONS, U.S. ARMY RESERVE

    General Visot. Chairman Wittman, Ranking Member Bordallo, 
distinguished members of the subcommittee, good afternoon and 
thank you for the opportunity to testify today.
    On behalf of the more than 200,000 Army Reserve soldiers 
and 12,000 civilians and military technicians and their 
families, I want to thank the subcommittee for its continued 
outstanding support of the Army Reserve.
    I am proud to report that America's Army Reserve is a 
ready, trained, and accessible operational force. The days of 
Strategic Army Reserve are simply gone.
    We provide a great return on investment for the American 
taxpayer as we comprise almost 20 percent of the total army for 
just 6 percent of the budget. As part of that total army, we 
provide lifesaving and life-sustaining capabilities to all 
Services and all components for both combat and contingency 
missions.
    The Operational Army Reserve currently has more than 12,000 
soldiers mobilized and deployed, serving in more than 28 
countries with almost 5,000 soldiers today in Afghanistan, and 
we are deeply committed to the health and welfare of our 
dedicated men and women.
    We continue to promote Army Reserve soldier and family 
resiliency by ensuring all members of the Army Reserve family 
have awareness of and access to the training and resources 
available to support their personal and professional well-being 
and wellness.
    Never in our Nation's history has the Army Reserve been 
more enduring and indispensible to America. The steady demand 
for the Army Reserve capabilities has introduced a new paradigm 
of reliance on the Army Reserve as a positive investment for 
America and an essential part of our national security 
architecture.
    While we are poised to continue to provide soldiers for 
planned and contingency missions, we are concerned with the 
additive impact of sequestration this year and in the future on 
training and readiness that may certainly have a negative 
effect on our capacity and ability to support missions abroad 
and respond to domestic disaster.
    In closing, we have the best Army Reserve in the U.S. 
history. Now is the time to build an investment that our Nation 
and this country has made in our Army Reserve. We understand 
the fiscal uncertainty we currently face as a nation, but that 
is exactly why it is critical to continue--invest in our 
Operational Reserve force. Keeping us ready, trained, and 
accessible is more critical in light of the budget impacts that 
will hit our army in the coming decades.
    Thank you for the opportunity to testify today and I look 
forward to your questions. Twice the Citizen, Army Strong. 
Thank you.
    Mr. Wittman. Thank you, General Visot. We appreciate that.
    General Fountain.

   STATEMENT OF BG WALTER E. FOUNTAIN, USARNG, ACTING DEPUTY 
               DIRECTOR, U.S. ARMY NATIONAL GUARD

    General Fountain. Chairman Wittman, Ranking Member 
Bordallo, distinguished members of the subcommittee, thank you 
for this opportunity to speak with you today.
    It is my honor to represent the more than 356,000 citizen 
soldiers in the Army National Guard.
    The Army National Guard is the best-manned, best-led, best-
trained, and best-equipped and most experienced in its 376-year 
history. This is do in no small part to the support of this 
committee, the daily support of our Guard families and 
employers, and the magnificent performance of our soldiers.
    This historic and essential level of readiness as an 
operational force is at risk due to budgetary uncertainty. If 
continued, it will erode current levels of readiness and 
potentially return the Army Guard to the Strategic Reserve.
    As we speak, there are more than 24,000 Guard soldiers 
mobilized across the world. Since September 11th, 2001, there 
have been more than 517,000 soldiers mobilized for Federal 
missions. The past year alone, Guard soldiers have provided 
over 447,000 duty days in service to State and Nation, saving 
lives and property in the face of disasters and emergencies.
    Over the last 12 years of conflict, the Army National Guard 
has shown that it is accessible to the Nation and States, 
capable of performing any mission assigned to it and ready for 
service.
    The Army Guard has answered the call time and again without 
fail. As an operational force, continued employment in 
contingencies, exercise and training opportunities at home and 
aboard is vital to maintaining the Army Guard's hard-won 
readiness and experience.
    Additional mobilization authorities enacted in the 2012 
NDAA [National Defense Authorization Act] provides the 
Department of Defense with an important option to employ 
Reserve forces overseas outside of current contingencies. 
Through preplanned and prebudgeted requirements, Reserve forces 
can bring their expertise and experience to support the 
combatant commander.
    The Army Guard has demonstrated that its units are capable 
of performing every mission they have been given. 
Simultaneously, it responded with no notice to some of the 
worst natural disasters in our Nation's history.
    This readiness for missions both at home and abroad is a 
function of resourcing. However, field and depot level 
maintenance in equipment is now being deferred, rotations to 
the Army's premiers Combat Training Centers have been 
cancelled, and technicians who do most of the maintenance are 
in danger of being furloughed.
    All these measures began to undermine the Guard's ability 
to respond rapidly to contingencies overseas and our no notice 
emergencies here at home.
    The Army Guard has recruited and retained a magnificent 
core of veteran soldiers who have demonstrated their eagerness 
to serve. All of them have either joined since September 2011 
or have made a conscious decision to continue service since.
    They expect to be employed in conducting the Army and 
Nation's business. Reductions in OPTEMPO [Operational Tempo] 
funding less money for military schools and fewer opportunities 
to perform training overseas deployments have occurred.
    If there is one mission I could--message I could leave you 
with today, it is now is not a time to put the Army National 
Guard back on the shelf and allow us to return to the Strategic 
Reserve. The current budget situation, if continued over time, 
presents challenges to the ability to maintain our operational 
Army National Guard.
    Today's Army National Guard is a low-cost, high-impact 
option for our Nation's defense. With continued modest 
investment, the Army Guard, as part of the total army solution, 
the Nation can continue to benefit from a cost-effective force 
of over 350,000 well-trained, ready soldiers who are eager to 
take on any mission at home or abroad.
    I appreciate the opportunity to speak today and look 
forward to your questions. Thank you.
    [The prepared statement of General Fountain can be found in 
the Appendix on page 54.]
    Mr. Wittman. Thank you, General Fountain.
    We appreciate your opening comments and that gives us a 
good baseline by which to go forward and I will begin the 
questioning.
    I want to start off with the issue of sequester and you all 
had alluded to that as how it affects the different elements of 
what is going on with the Army. It is a $5.3 billion reduction 
in operation and maintenance funding through fiscal year 2013, 
$1 billion of that is in the Reserve Component for both 
operation maintenance accounts.
    And to absorb this, the Army has had to do some things that 
I think in the--both in the short term and long term prove to 
be pretty challenging. With a reduction in training for over 78 
percent of our nondeployed BCTs, deferment of post combat 
maintenance on equipment, that is concerning, and also furlough 
of 251,000 Army civilian personnel, all of those I think 
collectively get us on the track that creates some problems.
    But I want to--I want to look at the training component, 
and General Huggins, I want to go to you and ask, to what level 
of readiness are the units training right now, both the 
deploying and non-deploying units? And are they able to 
accomplish collective training? In other words, at what level 
are they able to train--at the brigade level, at the battalion 
level, at the company level? How are we trying to overcome as 
best you can the training deficiencies, not just for the 
deploying units?
    I understand the deploying units are going to be kept up at 
their readiness training levels, but the nondeploying units to 
me, we will see quickly a decay of readiness as that training 
component decays.
    So if you could give me a little bit of overview about how 
training is going forward there and then at what level, at what 
magnitude, can training be pursued? And are there opportunities 
to try to overcome that by strategically looking at the 
training component?
    General Huggins. Chairman Wittman, thank you very much.
    First and foremost, as you stated, the forces that we have 
deploying will maintain a high level of collective, and by that 
I mean I--I mean brigade level since that is typically what we 
deploy training. Likewise, if it is a smaller element, a 
battalion or company or troop, we would work it at its highest 
level.
    That said, there is still a little bit of a difference than 
we would have done perhaps in the past. What we have done is we 
have tailored those units for their specific missions. As many 
of you have visited Afghanistan and Iraq, you know the strategy 
there has changed somewhat to security force assistance.
    So, what we have done with those, let's say ``standard 
brigade combat teams,'' is that they are deploying for their 
security force assistance mission, we have tailored their 
readiness standards to meet that. We have focused our 
collective training to meet that.
    But that is not the measure of readiness that we use in the 
standards updates we provide quarterly to the members. I mean, 
that is the--that readiness standard is as the unit was 
designed.
    So if it was a brigade combat team infantry, it is designed 
to conduct basically decisive action, either combined arms 
maneuver or wide area security now, and to the most lethal end 
of the spectrum of combat.
    So, even those units we are sending in harm's way but are 
not trained to that full level but they are trained to meet all 
of their combat requirements. I can absolutely guarantee you 
that portion. That is the easy part of the answer and that is 
our obligation as each of you has pointed out.
    For our non-deploying forces, they are tiered in the 
measure I spoke to. We are maintaining a high level of 
readiness for those in Korea, but even that is still somewhat 
less than our full measure of readiness. In our terms, C-1 
[Readiness level] would be the highest; this one would drop 
back down again to an assigned level.
    But for the vast majority, almost 80 percent--78 percent, 
as you stated, Mr. Chairman, is we have curtailed their 
training. If you are not deploying or going to either Kuwait 
for some of those stability operations we are conducting in 
operation Spartan Shield there, you will train only at the 
squad level.
    What forces command has--our component has relayed is that 
it is what we define as A-4. That is the bare minimum. But we 
are struggling to reach anything above that and as I said, we 
have cancelled Combat Training Center rotations and the real 
impact on this is the ramp to regain readiness is long and not 
very steep because it takes time.
    And you can lose readiness very, very quickly.
    It is--and what we are trying to do to mitigate that is 
also focus on our professional and leader development portions. 
But even that, that is just a mitigation measure. So, that is 
why I said I believe that is the case for 2013 and our outlook 
is it will extend into 2014.
    The real risk comes into global environment and that is 
those formations that could be allocated to respond to certain 
contingency plans around the world for the combatant 
commanders.
    Mr. Wittman. Thank you, General Huggins.
    I will not go to our Ranking Member, Representative 
Madeleine Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    And I guess this question would be to any one of the 
witnesses here and it is a takeoff, I guess, further on what 
the Chairman has been discussing.
    How will you know that your forces are not ready? And if 
you could limit your answer since we are timed up here and I 
would like to get in as many questions as I could. Whoever 
would like to, the question is how will you know that your 
forces are not ready? What will be the triggers that will tell 
you your forces are not ready and how far away, in your 
opinion, are we in terms of degraded readiness?
    General Huggins. Madam Chair--Madam Congressperson, I will 
tell you--I will go quickly because I think it is important to 
each of us here on the panel to give you a quick answer on this 
one.
    We have established standards, obviously, for avoiding--I 
can tell you that we are all committed to maintain our 
readiness at those squad levels we talked about. Our brothers 
in the Army Reserve and National Guard are funded to a little 
bit more than that but I will let them explain that.
    But the real measure is because we have given guidance to 
limit that readiness because we can't afford to buy more 
readiness other than at the squad level in about 80 percent of 
our formation, and that is so we can ensure we send the other 
forces in harm's way, fully trained and properly equipped, 
ma'am.
    Ms. Bordallo. Next.
    General Mason. Madam Congresswoman, you know, I focus on my 
job on equipment readiness, and so each month we do the unit 
status reporting, the strategic readiness updates. So I am 
watching those very carefully, and we are beginning to see a 
downtick in the home station, nondeployed forces.
    My concern is that we have got to watch that very closely 
because it is one--readiness is one of those things that all of 
a sudden drops off the--off the cliff. It happened to us in the 
1990s, so we are watching that very closely. That is unit 
readiness and that is happening down at our camps, posts and 
stations.
    And then there is a deeper strategic depot readiness that 
we are also watching very closely. And you won't feel that 
today or even next month or perhaps 6 months from now. You will 
feel that in a year or 2 years.
    And so there is this balance between looking at near-term 
readiness of units through our USR [Unit Status Report] 
reporting and we are watching that very closely. I look at it 
almost every day and brief it to the Chief several times a 
week. So we are focused on that and watching that.
    But the deeper one is the one that concerns me perhaps a 
little bit more because that is the one you can't get back. It 
will take you a long time to do that. So it is this balance 
between that. And so, that is where the sequestration, I think, 
will have the deeper, longer effect.
    Ms. Bordallo. Yes. Next.
    General Visot. Ranking Member Bordallo, as far as the Army 
Reserve, we are continuing to be a provider of sustainment and 
support capabilities that we have within the Army Reserve. We 
provide at a readiness level for training--at a training too, 
and utilized the Army Force Generation model, and we don't 
anticipate at this point, as we speak today a significant 
reduction for us because we are in that 60-month period of time 
for us to provide that readiness.
    At the T-2 level, that is as we go into the available year, 
our focus is primarily that we provide company level 
proficiency, and at the same time, battalion level or staff, 
you know, battle proficiency.
    So we don't anticipate at this point in time any 
significant impact upon our readiness in being able to provide 
the forces that our army requires and our army nation requires.
    Ms. Bordallo. Well, thank you, General.
    General Fountain.
    General Fountain. [Off mike.] --Ranking Member Bordallo, 
from an Army National Guard--Army Force Generation model--
readiness model which has allowed us and at the individual 
level and we continue to increase the level of readiness as we 
progress to the 60-month model to a collective level or unit 
level. For our combat formations, our objective is to reach 
platoon level for our combat's support--support in combat 
service, support company level as our brothers from the USAR 
[U.S. Army Reserve] do.
    To answer your question on how will we know when we reach 
degraded readiness levels, as I stated in my opening comments, 
we have already reached that point in the collective level with 
the cancellation of brigade combat team, CT--Combat Training 
Center rotations.
    The equipment levels will impact our readiness as well in 
regard to the availability of that equipment that is moving 
through depot and reset level maintenance.
    Finally, it should be known that for us to execute our 
domestic or home mission, that is based on our level of 
readiness to conduct our wartime mission as well so that we 
will have--be impacted--we will always respond domestically, 
the response could be slowed.
    Ms. Bordallo. Thank you. Thank you very much.
    Mr. Chairman, I know there are other members and I hope 
they have an opportunity to ask some questions, but I think I 
would like to come back for----
    Mr. Wittman. We will.
    Ms. Bordallo [continuing]. More.
    Mr. Wittman. We will----
    Ms. Bordallo. Thank you.
    Mr. Wittman [continuing]. Have a second round of questions.
    Ms. Bordallo. And I yield back.
    Mr. Wittman. Thank you, Ms. Bordallo.
    We will go now to Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    I thank all of you for being here and your service to our 
country.
    General Mason, I want to direct my question to you. As you 
may or may not know, I have the Anniston Army Depot in my 
congressional district and they have been a great asset as we 
prosecuted these two wars and many of them have gone over in 
the theater and just done everything that has been asked of 
them and more.
    But I have been bothered lately by the fact that this 
furlough talk has many of them concerned that they may be hit 
with furloughs and my understanding is that the defense working 
capital fund is fully funded that pays for the projects that 
are at the depot through this fiscal year and well into next 
year--toward the end of next year.
    Do you believe that the depot workers at Anniston would be 
subject to a furlough if in fact it were issued by the DOD 
[Department of Defense] given that working capital fund is 
fully funded?
    General Mason. Yes, Mr. Congressman. I agree with you 100 
percent. What our organic industrial base has done in Anniston, 
specifically with combat vehicles, has been amazing.
    The investment in that has taken the health of our combat 
fleet and our wheel fleet significant high and we have reduced 
the age of our fleet. So our fleets are in really pretty good 
shape right now thanks to the great workers in Anniston and the 
other Red River and the other depots that are there.
    The answer to your question is, right now, a furlough 
decision has not been made. It is still being worked through 
with the leadership of the Department of Defense and--but if it 
does, if we do have a furlough right now, the workers at 
Anniston would be part of that furlough. And we will have to 
work our way through, what the numbers will be there. But yes, 
sir, that is the plan right--even though it is an army working 
capital fund----
    Mr. Rogers. And why is that since it is already fully 
funded?
    General Mason. It--the structure for the furloughs and 
working capital fund are a separate piece and while the working 
capital fund, as you know, is that revolving fund in there, the 
workers still fall in like all the other workers do and it is 
not separated by either structure or by policy or law.
    So, it is something to look at in the future discussions 
and I personally would like to have some discussions with--
inside the Army and then with OSD [Office of the Secretary of 
Defense] as to whether there is a possibility in the future, 
could we separate the working capital fund or reimbursable type 
work from the other type of work that is there. That would be a 
policy issue that we would have to go back to OSD on but I 
think it is something worth looking at.
    Mr. Rogers. At present, it is not separated.
    So the working capital--you are saying at present it is not 
separated----
    General Mason. The dollars are but not the workers.
    Mr. Rogers. Right. And the dollars are subject to the cash 
flow problems that they are having?
    General Mason. They are. That is correct.
    And as workload comes down, you order less parts, the 
working capital fund then becomes at risk but there is cash in 
the working capital fund right now, that is correct.
    Mr. Rogers. I have heard in recent press reports over the 
last few days that there is a discussion within your Department 
about the furlough potential exposure being closer to 7 days 
than 14 days. I know it came down from 21 to 14. Is--are those 
press reports accurate?
    General Mason. I think all of those options are being 
looked at. You know, it was 21 days, potentially 14 and 7 is--
what I understand in the meetings I am in is that that is an 
option. Seven days is a potential option. I don't know where it 
will end up at.
    Mr. Rogers. Okay. Let me ask you, ultimately, how you feel 
this--if there are furloughs, would affect the readiness 
equipment that is already scheduled for maintenance.
    General Mason. It will end up pushing those works into 
2014, and so we will compound the risk that we have got in 2013 
and we will go into 2014 because we won't have the work there--
the workers to do all the work we need to do, and sequestration 
compounds that with the dollars that are going to be available 
to execute the work in the depots.
    So, as you know, we looked at cancelling. We have already 
began to cancel some third- and fourth-quarter work.
    Mr. Rogers. You know, my understanding is those 
cancelations are not applicable to Anniston as an Army depot, 
is that accurate?
    General Mason. Sir, I will take that for record.
    Mr. Rogers. Fine.
    General Mason. I think that there are--is work that will be 
cancelled, but I will take that for the record and come back to 
you.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Rogers. I would appreciate that.
    And I would just say as a side note, burdening the 
structure even more, I just came back from Afghanistan a week 
before last, and as they are positioning that equipment to come 
back, that is also going to be piling up at these depots 
whether it is small arms, wheeled track vehicles, whatever.
    We got a very important industrial base that we got to 
maintain and I appreciate the work that you do in that effort 
and we need to be doing a better job on our side of the table 
to make sure you have what you need. So, thank you for your 
service. And I yield back, Mr. Chairman.
    General Mason. Thank you, sir.
    Mr. Wittman. Thank you, Mr. Rogers.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman. I think my question 
is either going to be answered by General Huggins or General 
Mason.
    One of the things that we know from sequestration is its 
impact on the civilian workforce, and civilian workforce, just 
so we are not confused, we have of course those that--what I 
would call the ``outsourced workforce.'' And in--for example, I 
am from Hawaii, so Schofield Barracks depot is actually BAE so 
it is more of an outsourced kind of situation than people who 
are civilian--military civilian employees.
    Now having said that, it is also my understanding that the 
civilian, the military workforce, is under the operations and 
maintenance budget and that is why we are hearing all of these 
issues regarding furloughs.
    I also understand that all the Services are not ``created 
equal'' in terms of how those funds work. So, it is said that, 
for example, Navy and Marine Corps, probably have enough in 
their operations and maintenance budget or the amounts that 
they have to have zero furloughs.
    And I am wondering where you are because it is also said 
that you are not in the same position as Navy and there is a 
movement to treat everyone equally which then may result with 
the 7 days or the 14 days from the 22 days, whichever it is. So 
would one of you like to take a stab at that first?
    General Huggins. We tag team pretty well, ma'am. So, we 
will----
    Ms. Hanabusa. It is okay.
    General Huggins [continuing]. We will probably go back at 
it. I will try and frame the higher problem first. I understand 
the comments in terms of our Navy and our Marine brothers. Our 
challenge, it is an OMA [Operations and Maintenance, Army], 
operations maintenance fund issue, but it really stems for us 
from an overseas contingency operating fund shortfall to which 
we started out the year in and to which we continue to see 
increasing demands for everyday.
    So then that now has bled into out OMA account which then 
creates the shortfall in terms of our civilian pay. And 
obviously, that is a large percentage of it. So, that is the 
higher portion of the impact.
    Ms. Hanabusa. Before you tag off, let me ask you this, when 
we looked at the impacts of sequestration, and when the 
continued resolution and everything was identified, the 
sequestration component for OCO [Overseas Contingency 
Operations] was I believe about 6 billion. But what you are--
are you speaking to something other than that immediate 
sequestration impact that was assessed to the OCO budget?
    General Huggins. No, what I am saying is that initially we 
had a $10 billion shortfall in what we had requested in 
overseas----
    Ms. Hanabusa. I see.
    General Huggins [continuing]. Contingency funding.
    Ms. Hanabusa. Okay. I understand.
    General Huggins. That is right.
    Ms. Hanabusa. Okay.
    General Mason. Yes. Yes, ma'am. I think to add to that, we 
have got those--as I have mentioned earlier, we have got the 
near-term readiness of OPTEMPO which deals with repair parts 
and also fuel. And it deals also with the contractors who are 
supporting that equipment, and you don't want to take a lot of 
risk there right now because we are focused on deployers and 
next deployers. Where we are taking some risk frankly in the 
deeper readiness which is in the depot maintenance, both in the 
base account, which we are taking ready--we are taking risk in 
there, and now some risk in the OCO reset account because we 
want to make sure that the down--the soldiers and equipment 
that is down range in Afghanistan is fully ready to conduct 
combat operations.
    So that is that balance we have got right now. And so that 
is as--we don't then have the ability to move around that OMA 
dollars back here in the base and so that is impacting the 
furlough issue.
    Ms. Hanabusa. I know that has always been an issue of the 
flexibility that you may or may not need, but if you don't have 
dollars in there, you can't really be flexible.
    Now, one of the things that we will hear is that as we 
anticipate the--call them the ``drawdown'' from Afghanistan and 
everyone is sort of saying, ``Well, by then--by the year 2014 
or 2015 fiscal year, we should be down to zero on OCO.''
    But what I am hearing you are saying you really can't do 
that unless an additional account is boosted up because you 
can't do the retrograde and the reset at that time. Am I--am I 
hearing you correctly?
    General Mason. Yes, ma'am, you are correct. Just because 
the last combat soldiers or that part of the mission might end 
in 2014, of course we are looking at an enduring force and that 
is----
    Ms. Hanabusa. Right.
    General Mason [continuing]. Going to be determined what 
that number will be and of course that is going to require 
reset. But even as that equipment comes out in 2014, you got to 
transport it back, get it into the depot, a helicopter--a reset 
of a helicopter takes over a year.
    So even if that helicopter was to come back at the end of 
2014, you at least need dollars to 2015 and you have got other 
helicopters that are sitting there. So, this equipment takes 
some time to get it back, get it through the depot, work the 
repair parts against it.
    So, we have said is we need to reset OCO funding for 3 
years after the last equipment comes back that allows us to 
work through all the depots, get it out the other end and then 
impact the readiness.
    And just to let you know what that will end up doing is, 
that $20 billion worth of equipment that is sitting in 
Afghanistan right now, we have estimated it will cost us about 
$8 billion to reset it and that will improve our readiness 
equipment on-hand and our units from about 88 percent up to 
about 92 percent for all three composts. A significant, 
positive impact to readiness.
    Ms. Hanabusa. Thank you.
    Thank you, Mr. Chair.
    Mr. Wittman. Thank you, Ms. Hanabusa.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    General Mason, I appreciate you talking about the need in 
future years and the impact on future budgets. I think one of 
the things that we are struggling with right now is to meet the 
12-month number with quite honestly a lifetime's worth of 
responsibilities to form basic duty of protecting the United 
States citizens and their property.
    I have a 13-year-old son, so I want to talk with you 
briefly as a father who thinks that our world is more dangerous 
today than it was yesterday and thinks that it will probably be 
more dangerous in the year 2020 than it is today. And that is 
an important year to me because that will be my son's freshman 
year of college. And I don't know if any of you have children 
in that age range but certainly that is--if you do, I think you 
will understand where I am coming from with this.
    And I want to ask you, when you get a chance, to look at 
page 189 of the President's budget. And I want to just give you 
a couple of numbers from that and I am going to read directly 
from them.
    ``With regard to total federal spending between this year 
and 2020, we will increase total federal spending by $1.2 
trillion,'' according to the President's budget in this 
country. Non-defense discretionary spending will go up. Social 
Security will go up. Medicaid will go up. Every other mandatory 
program will go up. Net interest on the national debt--net 
interest on the national debt, assuming that we are able to 
manipulate interest rates the same way they are currently being 
manipulated, will exceed, according to the President's budget, 
what we spend on national security in 2020--the year that my 
child is a freshman in college.
    Total defense spending in that budget in 2020 is scheduled 
for $601 billion--$601 billion, well below where it is today. 
And so, when I hear the talk about the lack of training, well 
when our men and women aren't training, then we are putting 
them at risk, more so than they already are when we send them 
into action.
    When I hear that a minimum of the cuts that we are going to 
have, it is a delayed response. We can't wait. The minute when 
they put on the uniform, they go--when the bell sounds and we 
are going to continue to do that as Americans, and I guess, you 
know, when I look at all of this, and I look at the vision of 
the President for the country and there are a lot of us up here 
who really want to help you put some of these things right, and 
get our military back to the place it needs to be, and I am 
pretty frustrated with the DOD, and I feel like that some of 
the leadership at the DOD comes over here and they say, you 
know, ``Yes, sir. Thank you, sir. May we have another cut.''
    And so the question I have or that my request from you 
before I get into specific question is, when you are not on the 
cameras, please, please, look at that sheet, because if we 
can't help you, if the DOD is going to come over here and say, 
``Yes, we are going to take these cuts,'' if the--if the 
executives are there to--so, with that said, one of the 
questions that is on everybody's mind is BRAC [Base Realignment 
and Closure].
    And General Mason, I will offer this to you because I am 
down to a minute and a half and I know I don't have time for 
everybody to speak to this. But it cost $2.4 billion, is the 
request for the BRAC in this year's budget. Given the 
uncertainty, given the lack of training, given the need to 
reset, couldn't that money be used to offset some of the 
reductions in those areas that we all agree are so necessary 
for us to do our fundamental duty to protect the American 
citizens?
    General Mason. The--I know that the Secretary of Defense 
talked about BRAC during his testimony and discussed whether 
that would be something to put on the table or not. So, I will 
obviously defer to the Secretary of Defense.
    It is a base realignment and closure type environment. Do 
we need to do some realignment potentially in the outyears? Is 
there closure out there that may need to be done? I think it 
is--I think as the military officer, we look at options, so I 
think it is one thing that it needs to be discussed and let the 
facts take us to where it make sense.
    Do we have the dollars to spend on that or should we spend 
those dollars somewhere else? I think the analysis needs to be 
done and we need to let the facts drive us to what the right 
decision is.
    Mr. Scott. General, in their force reductions in Europe 
that we have had, how much are the--we are reducing them by 
about 45 percent. Are we see a corresponding amount of 
infrastructure reduction and are these reductions in your--
likely to save that much money?
    General Mason. I am not sure. I will take it for record on 
how much money it is because I am not familiar with that 
specific dollar figures.
    [The information referred to can be found in the Appendix 
on page 77.]
    General Mason. I would say that, you know, I have served in 
Europe, sir. We have come down significantly as you know and 
there is a study ongoing right now for a European 
restructuring. Do we have it right from an Army standpoint and 
all the other Services so that I have members on that team that 
are looking at right now, we have a responsibility to go back 
to the Secretary.
    Mr. Scott. General, my time for this round is expired. 
Thank you very much and I--again, page 189----
    General Mason. Yes, sir.
    Mr. Scott [continuing]. I hope that you will take a serious 
look at that and where this country is headed.
    General Mason. Sir, I will.
    Mr. Wittman. Thank you, Mr. Scott. Excuse me. Mr. Enyart.
    Mr. Enyart. Thank you, Mr. Chairman.
    General Visot, congratulations on becoming the Deputy 
Commanding General of Operations of USAR.
    General Visot. Thank you, sir.
    Mr. Enyart. You are welcome. Good to see you again, Luis.
    General Mason, the fiscal year 2014 budget shows a request 
for $2.4 billion for MILCON [Military Construction], and could 
you estimate for me what percentage of that is going to go to 
active installations and what percentage is going to go to Army 
National Guard installations?
    And what particularly concerns me is the fact that more 
than 46 percent of Army Guard Readiness Centers are over 50 
years old and at the current level of funding, it looks like it 
will take 154 years. So let's see, that is roughly from the 
Civil War to today to modernize those facilities. So, I 
appreciate if you could tell me what that looks like.
    General Mason. Yes, Mr. Congressman.
    First off, military construction is not in my area of 
responsibility or do I have a lot of depth in it. I mean, 
obviously, as an Army officer of 34 years, I have touched 
military construction. But currently, that is managed by our 
Installation Management Command Commander Mike Ferriter and 
also the Corps of Engineers. So I will certainly take part of 
your question for the record.
    [The information referred to can be found in the Appendix 
on page 77.]
    General Mason. I will tell you that my experience over the 
last 10 years of what the Congress has given us to improve our 
installations I think is pretty dramatic, and I think if you 
travel--and I am sure you have--to our installations across the 
compost, I think the investment that the Nation has put in our 
facilities is really amazing and we appreciate it.
    So, I can't speak to the specifics but I will take that for 
the record and make sure that the appropriate folks answer that 
and come back to you sir. I don't know if you have any 
questions, comments about the Reserve Component infrastructure, 
but I will have to take that for the record.
    Mr. Enyart. Thank you, General, I was just picking on you 
because you are four; four gets everything.
    General Mason. [Off mike.]
    Mr. Enyart. If it is log-related, I am going to pick on 
you.
    General Huggins, with the pivot to the Pacific, can you 
tell me, without going into any kind of classified level, what 
the Army's plans are to support AFRICOM [United States Africa 
Command]?
    General Huggins. The biggest concept is our regionally 
aligned forces concept which will be supported by the Army 
Force Generation model. Currently, we are working our first 
proof of principle for AFRICOM with the designation of a 
brigade combat team which will provide forces for the combatant 
commander. Some of those will go into Djibouti, others will 
become crisis reaction forces that we have been called to 
establish since the Benghazi incident.
    Mr. Enyart. So, you are talking about one BCT?
    General Huggins. Sir, due theater security cooperation, 
that is correct. We will also go further and regionally align 
divisions and corps, but those forces will obviously not be 
forward-positioned.
    But we will work the home station training with--as the 
term we used which even confuses us--some of us in uniform, is 
now distributed, so we used to have allocated and apportioned 
and our forces command has--whose proponent of running the 
regionally aligned forces model that is talked about a 
distribution of forces to where we assign corps and divisions 
and then brigade combat teams to align for the combatant 
commanders. Sir.
    Mr. Enyart. Thank you, General.
    General Huggins, I will pose this to you but if you want to 
pass part of this off, I will certainly understand. You know, 
the--of course, the Army War College teaches us its ends, ways, 
and means.
    And with what we see happening with sequestration, with the 
budget problems that we have and with the cutbacks, and the 
size of the military and proposed further cutbacks, do you 
believe or do you foresee a mismatch--a significant mismatch 
between the ends that we proposed to accomplish with our 
military force and the means with which we will be attempted to 
accomplish those ends?
    General Huggins. Sir, I personally see the potential for a 
mismatch. As Chairman Wittman stated at the beginning, I mean, 
the strategy must drive where we need to go, what the Army must 
accomplish and then the force structure designed to accomplish 
that task.
    And we are in significant discussions with the Office of 
the Secretary of Defense through our strategic choices 
management review process which has all the Services a part of 
that to look at the defense strategic guidance and other 
governing documents to determine the way ahead.
    But we also know that it is an exceptionally, fiscally 
constrained environment, and what we hope not to go to is an 
environment that tells us what to build in force structure 
based upon resources as opposed to strategy.
    Mr. Enyart. Thank you, General.
    Mr. Wittman. Thank you, Mr. Enyart.
    Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    And I would like to thank our witnesses for their service 
to our country and also for being here today for your 
testimony. There is absolutely no secret that our Nation faces 
some very serious financial challenges.
    You know, I think many of us in Congress, we advocate for 
cutting spending but there is a responsible way of cutting 
spending and there is a--I guess a dumb way of cutting 
spending, and sequestration I think falls on--in the latter, 
mindless cuts to defense. Yes, I think 50 percent of all the 
cuts to date are coming from defense when we only make that 
almost less than 20 percent of the budget.
    So having said that, my kind of--my heart lies with the 
Reserve and the Guard. I love our Active Duty men and women in 
uniform, but being a reservist and a guardsman--my citizen 
soldier life.
    I want to--real quick--because I do have three questions. I 
want to ask you, do you foresee us going from an operational--
the Guard and Reserve--going from an operational force back to 
a Strategic Reserve because--and there are other discussions 
going on of that nature, Major General, then we could go to 
Brigadier General Fountain, so?
    General Visot. Congressman Palazzo, first, thank you very 
much for your service to our Nation as a guardsman in the State 
of Mississippi. I appreciate that very much.
    Mr. Palazzo. Pales in comparison to you all's.
    General Visot. No. So, from my perspective, you know, in 
terms of--we cannot afford, you know, to lose what we have 
gained as a result of 11 years of experience in the battlefield 
with--you know, from an Army Reserve perspective, with the 
National Guardsman an Active Component.
    I don't think the Nation can afford, you know, to give away 
on that investment because that is what it is. You know, the 
Army Reserve is a positive investment for the United States and 
for our Nation. And to give away what we have earned, we feel 
very strongly, it is not a thing that we can afford to do in 
our Nation. And we hope that, you know, throughout the years 
with the support from the Congress that we will continue to do 
that and not go back to a Strategic Reserve.
    General Fountain. Congressman, the Army has no intent, in 
my professional opinion is, in to returning us to a Strategic 
Reserve.
    The reality and what I hope to have captured during my 
opening statement is that the readiness has already been 
discussed that was developed over the last 12 years is 
perishable, that it was a significant investment for us to make 
the transition from a Strategic Reserve to a full partner in an 
operational force that is a function of resourcing, and the 
resourcing is where we will depend on your assistance to see 
that we do not return to that point.
    The--I think the three components together are stronger 
together than we are at different levels of readiness. That is 
what has brought us to this point. So, there is no intent for 
us to return to that point. It is just a reality of resourcing.
    If we cannot continue to do those things to train as we 
have in the last 12 years, if we do not maintain our equipment, 
all those second-, third-order effects to resourcing or a lack 
thereof.
    Mr. Palazzo. Well, General, I agree with you both. I have 
served in both the Strategic Reserve Component and also the 
operational force structure. And I would much rather--I don't--
I would hate to see us waste that investment and some hard-
earned lessons.
    Real quick, I know last year, the 11th annual QRMC 
[Quadrennial Review of Military Compensation] actually proposed 
the possibility of cutting Guard and Reserve pay by 50 percent. 
Now, personally, I think that would be devastating to readiness 
recruitment and retention especially as the Active forces are 
downsizing. We would like our Active Duty men and women to look 
to the Guard and Reserves because we would like to see that 
become a repository of their hard-earned skill and knowledge 
and training.
    Real quick and I know I am kind of running short, are you 
all hearing this and are you all squashing it as that 
possibility may come up and in you all's conversations?
    General Visot. Congressman, we have heard about that. As 
you all know, the critical part of this is not just the pay, 
you know, to attend a battle assembly. It is all the cost that 
is also associated with that, so just travel cost, hotel cost, 
you know, lodging cost, that are just not, you know, within 
that enough, especially when you look at a, you know, a 
sergeant, you know, in an Army that has to travel distances.
    So all those things come into play, so I think the way that 
we currently are, you know, paid for our service to our Nation 
is a very small investment for the return that we get.
    Mr. Palazzo. Okay. General Fountain.
    General Fountain. Yes, Congressman, the Army National 
Guard's position is very similar in that we feel the current 
compensation system meets the requirement, is fair, and clearly 
added value to the resource you get from the Army National 
Guard.
    While there could be merits in reviewing any compensation 
plan, we think that a full review would have to be done as to 
whether or not you actually get cost savings if you start 
considering different benefits that would come with a day's 
order or something of that scenario.
    So, a full review and all potential second-, third-order 
effects for readiness I think would be due before you can make 
a decision such as that.
    Mr. Palazzo. All right. Thank you, gentlemen.
    General Fountain. Sir.
    Mr. Palazzo. I yield back.
    Mr. Wittman. Thank you, Mr. Palazzo.
    Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman. Thank you for your 
service and I am going to echo some of my colleagues' comments 
but I certainly did not support these cuts to our national 
defense and I was glad to be part of the Budget Committee to 
help restore the defense spending in the 2014 budget that was 
passed out of the House. We are going to continue to try to do 
that.
    But in the meanwhile, I want to follow up on some of the 
President's proposal regarding the BRAC. I know my colleague 
asked some questions here earlier. But has there been an 
assessment done within the Department of Army on excess 
infrastructure on army installations?
    General Huggins. Ma'am, one was done for the last BRAC. We 
are currently not doing a continuing assessment other than what 
General Mason mentioned for Europe which is a specific look for 
those forward-deployed.
    But to the--really the--to set the context, I mean, we 
currently--we are looking at--as the Active force goes to 
490,000, we are looking in going through our programmatic 
environmental assessment process.
    And we are currently in our listening, we have gone out to 
communities and are conducting our listening sessions to hear 
firsthand what the impacts are from them.
    And then we will make a decision after that is done in 
terms of what kind of a recommendation as to where we think 
future stationing will be. And then, that may potentially drive 
us to look at places for--where excess capacity or excess 
equipment exists. But, we are a little bit away from that at 
this point in time.
    Mrs. Hartzler. I just don't quite understand the move to 
try to push a BRAC when--it is my understanding you had 490,000 
before 9/11, isn't that correct? It is about the same force 
structure we had pre-9/11. And we had a BRAC in 2005 which took 
some excess infrastructure out.
    So basically, you are having the same number of soldiers on 
our bases with less infrastructure right now. So, why is there 
a move to push for more infrastructure to be taken out?
    General Huggins. Well, we are at a high of 569,000----
    Mrs. Hartzler. Yes.
    General Huggins [continuing]. Now from--so we have grown 
and we have put structure in places as we look for the best 
places to build divisions, build enablers that would support 
those divisions on installations. Going down to 490,000, we 
have got to take a holistic review of everything to make sure 
we have it. And efficiencies will play in that obviously, but--
--
    Mrs. Hartzler. Yes.
    General Huggins [continuing]. I think it is prudent that we 
do that. But right now, we are--again, as we are still trying 
to gain the rest of the information from the community.
    Mrs. Hartzler. Okay. And I understand that you are moving 
to move down to force structure but I still think with the 
excess cost that we see haven't even broke even yet from the 
2005 BRAC. It cost $37 billion, now you are supposed to break 
even to 2018 and then we have all these other cuts and less 
resources and then $2.4 billion cost to do any more. I am 
reticent to support that.
    But I wanted to shift and follow up on my friend from 
Mississippi's comments to the Guard and Reserve. I certainly 
appreciate the role that you play. My dad was in the U.S. Army 
Reserves, and so I grew up appreciating that very, very, much.
    And I know in the defense strategy that came out last 
October, there was a move and a shift to continue to place more 
and more of the responsibilities of our National Defense on an 
Active operational force of the Guard and Reserve.
    And I guess my question is, with sequestration and the 
current budgetary environment, do you feel like, that you are 
going to have what you need to be able to continue at that 
level of proficiency?
    General Visot. Congresswoman, thank you very much for the 
question. As far as the Army Reserve, as I stated earlier, we 
just cannot afford, you know, to lose that tremendous 
investment on our capability to remain an Operational Army 
Reserve.
    The impact of sequestration we will have is one for 
example, of civilian pay and furlough. It will have an impact 
upon depot maintenance, you know, as my--as General Mason 
mentioned specifically in reset. It will have also an impact 
upon OPTEMPO in terms of the training, you know, that we have 
going on. The, and lastly, the impact will be in sustainment 
restoration and modernization.
    All those four items combined, you know, will have a 
significant impact in us in order for us to be able to sustain 
our ability to remain an Operational Army Reserve which I don't 
think at this point in time in our history we can afford to do 
that as a nation.
    Mrs. Hartzler. Exactly. General Fountain.
    General Fountain. Yes, Congresswoman. The same impacts of 
sequestration that the Army suffers and the USAR suffers, so 
will the Army National Guard. The sequestration from strictly 
Army National Guard perspective impacts that investment of 
time, just as my colleague mentioned from the USAR.
    It simply is a situation where--and I believe the Chairman 
of Joint Chiefs General Dempsey made a statement during his 
discussion in reference the fiscal year 2014 budget when he 
stated that, ``It is less expensive to stay ready than to get 
ready,'' and that I am probably messing that quote up but that 
is the bottom line.
    From our perspective, we have through investment from what 
this great country have transitioned from an Operational 
Reserve--Strategic Reserve to an operational force at a great 
cost, and to lose that investment to us would be buying high 
and selling low.
    Mrs. Hartzler. There we go. Thank you very much.
    Mr. Wittman. Thank you, Mrs. Hartzler. We are going to 
begin a second round of questions and I want to focus on the 
DOD's new strategic guidance that was released in January of 
2012 and then the accompanying document from the Secretary on 
Defense budget priorities and choices.
    And as you know, there is a significant element in there 
that relates to readiness in the U.S. Pacific Command and I 
wanted to get each of your perspective on how does that affect 
Army readiness?
    What are the challenges that that new strategic directive 
provides to the Army to get your perspective on where things 
are going?
    And again, it goes back to the earlier comments about 
strategy and making sure that strategy is driving how we 
determine how resources are allocated, not the other way around 
looking at resources and then say that that drives a strategy 
and we have some clear strategy directives now.
    So I wanted to get each of your individual perspectives on 
this new strategy initiative and then the Secretary of 
Defense's comments and directives on our defense budget 
priorities and choices. And we begin with you General Huggins.
    General Huggins. Chairman, thank you. Obviously, the 
strategy drove us to the Pacific in terms of--as we looked at 
our national vital interest. The Army has taken in and now is 
upgunning the three-star headquarters we have in U.S. Army 
Pacific at Fort Shafter to four-stars, so that is measure one.
    And we don't do that to create another four-star position 
but because the oversight on the responsibility for increased 
capability there requires such. And that increased capability 
is, first and foremost, in the form of the 25th Infantry 
Division which is now forced into the PACOM [United States 
Pacific Command] area. We have also gone to Fort Lewis--or 
Joint Base Lewis-McChord and allocated it also.
    So, the first corps as the JTF [Joint Task Force] and we 
are working training exercises with PACOM and USARPAC [U.S. 
Army Pacific] to certify those headquarters as a combined joint 
task force level--take resources, but once there are probably 
good investments for a strategic hedge given especially our 
current world situation in that area.
    There are--the brigades have also been taken off of our--
what we have notionally called the ``patch chart'' that shows 
the deploying units for our combat operations. So, we have 
taken the 25th Infantry Division brigades--the brigades in 
Alaska and two of the Stryker Brigades at Joint Base Lewis-
McChord, and basically protected them to work their readiness 
for response to the Pacific area and those threats.
    That said, Sir, we are only training those forces to the 
squad level.
    Now, the exception to that are the forces that are 
committed to--on the peninsula of Korea already, which again we 
will maintain a higher level of readiness for. It is an impact, 
but we have--in this case, we have clear priority so we move 
to--to those priorities. We just wish we could gain higher 
level of readiness for each of those divisions, the corps and 
the BCTs and our soldiers within them.
    Mr. Wittman. Very good.
    General Mason.
    Thank you, General.
    General Mason. Mr. Chairman, I have got four tours in the 
Pacific, a little over 10 years. Most recently, 3 years ago, I 
commanded the two-star headquarters there, so I spent a fair 
amount of time.
    To me, it is a region of opportunities and challenges. 
There are great opportunities there, well, for our Nation 
economically. And there are opportunities there for us as a 
military to train with other forces to become interoperable 
to--and most of those militaries in that part of the world are 
actually predominantly Army, and so there is--although it is a 
big ocean out there, there is a land force out there, and so 
connecting with that land force and staying with them.
    And there is great exercise programs both at the joint and 
the Army level, so it can improve our readiness.
    And as General Huggins mentioned, rotating forces in and 
out of there and getting them used to that part of the world, 
we can leverage capabilities of these other nations. They bring 
incredible capabilities--our particular allies, the 
Australians, others that are there.
    We also preposition stocks out in the Pacific. APS [Army 
Prepositioned Stocks] sets, both brigade sets, that is--as well 
as what we call operational project stocks. They--so we have 
got land out there, we can put on the ground, so our allies in 
Japan, in Korea and other places. You know, we are discussing 
it with the Australians potentially. But it has challenges.
    Probably the primary challenge is the tyranny of distance. 
Traveling in the Pacific is expensive. You got to have ships, 
then you get to a location. You got to have planes to get 
deeper in locations, and it is very helicopter-intensive, so it 
has got some challenges for training that does increase your 
cost. But I think the opportunities in the Pacific both at the 
strategic operational tactical level are worth those kinds of 
costs. And I think we are going to be a better Army by staying 
engaged in the Pacific. I think we are going to be a better 
nation by staying engaged in that part of the world.
    And there is cost-sharing that occurs. We have cost-sharing 
with the Koreans. They bear some of the cost of our 
capabilities there. And potentially, there is other cost-
sharing relationships.
    Some of our strongest alliances and treaties are in the 
Pacific. So it is a dichotomy of challenges and opportunities, 
Sir.
    Mr. Wittman. Very good.
    General Visot, if you could do that quickly and General 
Fountain, then in the interest of time for--so I get to Ms. 
Bordallo.
    General Visot. Mr. Chairman, we are definitely committed to 
continuing to support because we presently have about 4,000 
soldiers that are located in the Pacific Command area of 
support, and we continue to provide the sustainment and 
support, you know, capabilities within that area and align 
ourselves with the strategy of aligning regional alignment 
forces through our Army Reserve engagements cells and Army 
Reserve engagement teams, we will be able to fulfill the 
Nation's requests.
    Mr. Wittman. Okay. General Fountain.
    General Fountain. Yes, Mr. Chairman. The Army National 
Guard also feels that we can make the transition and support 
the chief staff of the Army's regional alignment forces 
strategy as well.
    Whether it would be security cooperation or building 
partnership capacity, we feel that that would be a natural 
evolution of our 65 partnerships across the globe today. And 
the Army Force Generation Model is adaptable enough to focus 
mission training and deployment and keep us engaged as an 
operational force to the strategy.
    Mr. Wittman. Thank you. And that is a great lead-in to 
Ranking Member Bordallo, who has a great National Guard 
component there in Guam.
    Ms. Bordallo. Thank you. Thank you very much. I was going 
to mention that, Mr. Chairman.
    I wanted--just whoever you think, if the answer is the same 
between the two Services, then I guess, we will just go to 
those that may have a different idea on this. What 
flexibilities or exceptions did you request in terms of 
furloughing civilian personnel? And also, what is the impact of 
using borrowed military manpower to backfill the civilian 
positions?
    General Huggins. Ranking Member Bordallo, we ask for no 
exceptions based on the guidance that were given to us. We have 
looked at the impact in terms of the furlough. And as was 
stated before, we are, even today, working drilldowns as we go 
from 14 to 7 and possibly to zero on furloughs because we do 
think that is going to impact on the way ahead.
    I would tell you it will impact, you know, our readiness in 
the long-term because of exactly what has been stated in terms 
of what we are going to have to defer.
    The minimum amount that--and General Mason can speak more 
of this--that we are trying to do to keep our depots operating 
so we don't have to go into a cold status and then have to 
start them up over again. But I will see if General Mason has 
anything else to add.
    Ms. Bordallo. General.
    General Mason. To the second part of the question about our 
military manpower, we have taken very--very seriously, Ma'am, 
and we are looking at them. The G3 holds weekly meetings and we 
are looking at where can we use soldiers appropriately that 
aren't too far outside of their military occupational 
specialty. But based on the constraints we have got now with 
dollars, we likely are going to have to have some borrowed 
military manpower.
    Now we have done it in the past and it is one of those 
things that commanders take a hard look at because you want to 
balance training with all the other requirements on there, and 
we are working our way through that.
    As far as the furlough impact on the depots, it will be 
significant. And, you know, as a depot operates, you don't want 
to shut a depot down, you want to keep it on, yes, while you 
are on two or three shifts as you well know. So our concern is 
this herky-jerky kind of situation with a furlough. And that 
will be challenging, and we will see where the numbers come 
out, but obviously the less furlough the better for us in the 
depots.
    Ms. Bordallo. Would the others like to comment, General?
    General Visot. Yes, ma'am. From the Army Reserve, our 
position is we would like not to have to furlough, you know, 
our civilian military technicians because of the fact those are 
GS-5s and GS-7 employees. As you know, when you cut 20 percent 
of their salary for, you know, 14 days or so, that has 
significant financial impact not only on the soldiers 
themselves, but also on their families.
    Ms. Bordallo. And General Fountain.
    General Fountain. Ranking Member Bordallo, as the impact 
goes with the Army National Guard is that our--we have very few 
civilians. Our full-time manning provides a baseline of 
readiness for support of the other 83 percent of our force 
which is part-time or traditional guardsmen. Military dual-
status technicians are actually members of those Army National 
Guard formations and deployable assets whether at home or 
abroad.
    The areas where we did request some exception was at the 
area of physical security, emergency response services and 
others. But the primary impact will be for us is readiness that 
the administration, training, and maintenance that is done by 
these individuals. And the part utilized and borrowed military 
manpower really doesn't apply to Reserve Component in that we 
are a part-time force.
    Ms. Bordallo. Thank you. Thank you, General.
    How are any of you using sequestration as an opportunity to 
do business differently at the headquarters or administrative 
levels? Are any of you--if you could give me a quick answer 
because my time is running out.
    General Huggins. We all can refine and look for that 
opportunity. Madam Chairperson, it is a matter of really 
looking at our processes.
    For instance, in our modernization processes, we are going 
through with our acquisition community and finding 
efficiencies. Some were forced that way because of just 
absolute need where, in the past, perhaps it was easier to try 
and do it another way. But there have been multiple 
opportunities. And it is not a good thing, but we try to find 
the best we can out of it.
    Ms. Bordallo. So you are going to become businessmen?
    General Huggins. I would scare most of you if we try that, 
but I would sure take that for the record, Ma'am.
    Ms. Bordallo. All right. Thank you.
    Was there anything else you wanted to add just very 
quickly?
    General Mason. No, ma'am. I think we don't want to become 
businessmen, but we will use business practices where they are 
appropriate for sure just as you described.
    Ms. Bordallo. Very good. All right.
    In closing, Mr. Chairman, I wish to say that I am extremely 
proud of the service that has been rendered by the Reserves, 
the Air Guard, the National Guard.
    And currently, as Mr. Chairman said, I just returned from 
the State of Mississippi where I witnessed the briefing of 600 
of the Guam National Guard. That is quite a number for a small 
United States territory, and we are very proud of them.
    And I also want to thank you for your leadership with all 
the different organizations that you represent here. And I join 
my colleagues, and I do not agree with the deep cuts to our 
Armed Services.
    And with that, I yield back.
    Mr. Wittman. Thank you, Ms. Bordallo.
    We will now go to Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, I want to talk with you briefly about AFRICOM 
and--and just about Africa, in general, and the challenges that 
are there. As somebody who just looking at the raw numbers, you 
are talking about approximately a billion people.
    You are talking about 20 percent of the land mass of the 
world. You are talking about 54 countries plus Somalia and--I 
am sorry, Somaliland and Morocco, so we got 56 different 
governments that you would potentially have to deal with. We 
are talking about downsizing our military both in the terms of 
manpower and in the terms of our weapon systems and 
capabilities.
    Why is the military convinced or the leadership of the 
country convinced that we can engage in Africa with the type of 
challenges that are there while, at the same time, engaging in 
all of these massive cuts to our military and the equipment and 
the training that they need would be my first question.
    And the second question I have would be, is China 
downsizing their military? Is Russia downsizing their military, 
are any of those countries that could potentially be our foes 
in the future downsizing their military?
    General Huggins. Congressman Scott, thank you very much for 
the question. First to set the stage for the AFRICOM piece, you 
certainly bring up a great topic because there is an awful lot 
of human suffering going on in that area.
    I have great confidence in General Rodriguez who just took 
the helm there in terms of defining the requirements to us as 
the Army service to support his engagements. Currently that 
demand signal does not exist that much, but I would have to be 
honest and say that probably is more a function of everything 
we have committed for years to Afghanistan and Iraq.
    Hopefully as we see that situation begin to downsize even 
further if the situation require. We can support it. We could 
see a strategy that might allow other forces to go to other 
places. But I believe first and foremost the Africa piece is 
probably a whole-of-government approach to work engaging. And 
then our piece is working with the various militaries to try 
and build capacity at that level, which we are doing.
    Our National Guard brothers engage right now in Partnership 
for Peace activities, the State Partnership Exchanges. But what 
we have found in our previous engagements there, our 
capabilities so outmatch many of the Armies that are in that 
country. And I am really talking more about Central Africa, 
West Africa, and the south, not all the way to South Africa, 
that they want basic levels of instructions. And we are able to 
help them with that.
    The real issue is, is how we are going to address the whole 
continent writ large as in--and that becomes a multiple COCOM 
[Combatant Command] requirement or challenge when we look at 
the partnering space with Central Command, Sir.
    General Mason. I would add, Sir, that we need to stay 
engaged in that part of the world, but the engagement doesn't 
necessarily to be in large formations, even brigades.
    Many times just well drilling, building a bridge, and 
engagement with USDA or Department of Agriculture, those kinds, 
that whole-of-government piece, I think, many times pays back 
greater dividends. You put a small footprint in there.
    Now we have a command----
    Mr. Scott. General, if I may----
    General Mason. Yes.
    Mr. Scott [continuing]. I certainly mean to be as 
respectful as I can. I am down to about 1 minute. With all due 
respect, Sir, you are talking about nation-building, and that 
is not the reason we have the Armed Services of this country. 
But that is nation-building when we are doing wells and other 
things along those lines.
    And again, I think that we want to do what we can to help 
people. But my fear is that we are leaving our country 
vulnerable.
    And if you look at where we are today, we don't talk about 
Iran that much because Syria heated up. We don't talk about 
Syria that much because North Korea heated up. I mean, we are 
still in Afghanistan. We spent a fortune in Iraq and 
Afghanistan. We have been up against a capable enemy, but not 
an enemy that is capable technologically of taking down 
insignificant numbers.
    Our aircraft, not that any loss is insignificant, but we 
have not been up against China or Russia, or anybody who has 
got the aircraft to take us one on one.
    And I guess, my concern again is, you know, with due 
respect, you are talking about nation-building. And as we take 
these cuts, I really think we got to focus on making sure that 
we protect America first because if we don't protect America 
first, we can't do anything to help the men and women in the 
other countries out there.
    General Mason. Sir, I very much appreciate that. My point 
would be is if you can build stability in a country, the 
opportunities for terrorists to come in and for other agents to 
create an environment such as in Afghanistan with the Taliban 
may be less. So I think it is directly related to national 
security, but I understand your point.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Scott.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    General Mason, you used the words ``organic industrial 
base.'' Just so that we are on the same page, can you tell me 
what you mean when you say ``organic industrial base''?
    General Mason. Yes, Ma'am. When I talk about the organic 
industrial base, I am talking about the industrial base that 
United States Army and, of course, the other Services have 
similar. But we have what we call hard-iron depots--Anniston, 
Red River, depots of that nature.
    We also include our arsenals, which have manufacturing 
capabilities such as Rock Island Arsenal and Watervliet. 
Watervliet does cannons. Rock Island does a real fine type of 
metalwork. So those are our arsenals and our hard-iron depots 
where we do rebuild and reset of trucks, tanks, helicopters.
    Ms. Hanabusa. Thank you.
    You also mentioned the fact that, you know, we are teaming 
up with others. And this is because of your experience in the 
Pacific. I don't think my colleagues are aware of the fact that 
as far as the U.S. Army Pacific that you really have now an 
Australian general in a dominant, quite obvious position for us 
in Hawaii.
    So can you explain to us what the position of the 
Australian general is and what he is anticipated to do and 
participate? Does he have full range of participation?
    General Mason. And all of the three perhaps can answer 
this, but he is the deputy commander there so he has all the 
full responsibilities of a--just as a U.S. general was. And, in 
fact, I did a 2-year exchange in the Australian Army, so I 
understand it very well. In fact, I commanded Australian forces 
during my tour, so I had full rights and responsibilities as 
a--in that military. So that is his role, and I think it is a 
great partnership.
    As you know, we have Canadian down with Fort Hood, so this 
relationship with some of our greatest allies is very powerful. 
And I think it is a really good thing here in USARPAC.
    Ms. Hanabusa. Do we have any concerns about any kind of 
confidential information or anything like that, General 
Huggins?
    General Huggins. No, ma'am. There are certainly limits. And 
we typically have an acronym we use for the five eyes for the 
nations that we have the highest level of clearance rate. But 
we still protect some information.
    But the Australians are great partners. And more 
importantly, it sends a message to all of our Pacific partners 
the team that is trying to be built there because it will be, 
you know, a multicultural, a multinational solution here.
    Ms. Hanabusa. Thank you.
    General Fountain, one of the things that I have always been 
curious about is Title 32 and Title 10 interface. And I do 
understand the amount of investment that we have made as a 
country both in the Guard as well as in the Reserve, and it 
would be a travesty to lose that.
    Having said that, however, as far as the Guard is 
concerned, you know, you are the State militia primarily, which 
means to a certain extent, well, maybe not even to a certain 
extent, technically the Governor of the State--of respective 
States are really your co-commander.
    So as you come before us and you say that we want to ensure 
the continuation of the Guard, there still is this other player 
out there called the Governor, Title 32.
    So have you given any consideration or Generals, yourselves 
as well as to how as you want to maintain, and there is nothing 
that I am necessarily opposed to, but how are you going to do 
that if a Governor, for example, does not cooperate and says, 
``We don't want--whatever minimum amount it may cause the 
State, we don't want that expense.'' How do you intend to 
basically get that in line with what you want to do?
    General Fountain. Yes, Congresswoman. I cannot speak for 
each Governor or the Governors Association, but I would simply 
say that it is a challenge and just as running our democracy is 
a challenge.
    However, I do believe each Governor is very aware that that 
capability and capacity that resides within their Title 32 Army 
National Guard and Air National Guard, for that matter, is 
developed through our relationship with our Title 10 services. 
And those Title 10 services man, train, and equip to fight and 
win America's wars. But that capability and capacity is 
leveraged by the Governors and their adjutant generals to 
support that State, regional, and in some instances, national 
mission set here in the homeland.
    Ms. Hanabusa. So we would be--we will be on--I mean, I 
would be correct. If I were to say that if, for example, the 
Army decided that it didn't want the level of participation 
that you have now that they probably would be very little for 
them to--for a Governor to leverage under your scenario.
    General Fountain. Yes, Congresswoman.
    The Army Total Force Policy is something that all three 
components are committed to. And we believe that the Army Total 
Force Policy is essential to us remaining in the operational 
force. So provided resources are available to continue to 
maintain those hard-fought gains, I believe that we will 
continue to be that equitable partner, and the Army will 
continue to leverage us for those areas where we are very 
skilled in our contribution to the total Army.
    Ms. Hanabusa. Thank you.
    Thank you, Mr. Chair.
    Mr. Wittman. Thank you, Ms. Hanabusa.
    And with that, if there are no other questions to come 
before our witnesses we will adjourn the Subcommittee on 
Readiness for the House Armed Services Committee.
    [Whereupon, at 4:01 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             April 16, 2013

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 16, 2013

=======================================================================

      
                  Statement of Hon. Robert J. Wittman

               Chairman, House Subcommittee on Readiness

                               Hearing on

                 The Readiness Posture of the U.S. Army

                             April 16, 2013

    Welcome to this afternoon's hearing. I would like to thank 
our panel of experts for being here today to address the 
readiness posture of the United States Army.
    Over the past 12 years, the Army--Active, Guard, and 
Reserve--has deployed more than 1.1 million soldiers to combat 
with more than 4,500 giving the last full measure of devotion 
for this country. More than 32,000 soldiers have been wounded--
9,000 requiring long-term care. In that time, soldiers have 
earned more than 14,000 awards for valor to include 7 Medals of 
Honor and 22 Distinguished Service Crosses.
    The Army's contributions to our national security have been 
numerous and continue around the world today. This hearing 
comes at a time of strategic inflection for the Army.
    After more than a decade of protracted counterinsurgency 
operations and cyclic combat operations in Middle East, the 
Army must find a way to return to full-spectrum operations, 
reset and reconstitute the force, responsibly draw down 
operations in Afghanistan, and fully develop its role under the 
new Defense Strategic Guidance.
    The Army must find a way to do all this under a tightening 
budget and the compounding challenges of sequestration, 
continuing fiscal challenges in Afghanistan, and do so with a 
smaller force.
    To discuss how the Army plans to meet the challenges of 
tomorrow in this austere budgetary environment, we have with us 
this afternoon:
        <bullet> LLieutenant General James L. Huggins, Jr., the 
        Army's Deputy Chief of Staff for Operations;
        <bullet> LLieutenant General Raymond V. Mason, the 
        Army's Deputy Chief of Staff for Logistics;
        <bullet> LMajor General Luis R. Visot, the Deputy 
        Commanding General for Operations for the U.S. Army 
        Reserve; and
        <bullet> LBrigadier General Walter E. Fountain, the 
        Acting Deputy Director of the U.S. Army National Guard.
    Gentlemen, thank you all very much for being here today. I 
appreciated your thoughtful statements and your insights into 
our Nation's Army.
    General Huggins, General Fountain, and General Visot, I 
understand that for each of you this is your first time 
testifying before the Armed Services Committee, welcome. 
General Mason, welcome back.
    Last year this subcommittee spent a great deal of time 
exploring our current state of readiness and discussing how we 
remain prepared to meet the challenges we are likely to face in 
the future.
    Time and time again, we heard of a force that was described 
as being ``on the ragged edge.'' Today we again explore 
readiness, this time, in the context of how the Army is 
reshaping itself to be ready for the future conflicts of the 
21st century.
    The Administration continues to argue that we can afford a 
smaller force with a smaller Army--an Army with less capacity, 
so long as we have a more capable one.
    To enable a skilled, superior Army, one that can meet the 
Nation's needs and respond to a wide range of threats, will 
require timely, thoughtful, and targeted investments.
    The Army must spend every dollar wisely as it seeks to 
remain ready. Anything less would result in far-reaching and 
long-lasting implications for the Army and for this Nation.
    Congress has a responsibility and constitutional duty to 
train and equip our soldiers--to ensure they are ready for the 
job we have asked them to do. I look forward to learning about 
what investments in readiness you are making and how the Army 
plans to meet its mission in these challenging times. 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 16, 2013

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. ROGERS

    General Mason. No. The current budget uncertainty caused us to 
shift our efforts from lower priority to higher priority programs, and 
like all depots and arsenals, Anniston had some program cancellations 
or deferrals to FY14.
    Workload is not evenly distributed across the depot's shops and 
some workload will be delayed while awaiting parts and materials. 
Production gaps for some equipment lines began in the April/May 
timeframe. Many of the remaining lines will operate at substantially 
reduced quantities, but will remain open and continue to repair assets.
    As of 10 April, Anniston has released 449 personnel. Anniston has 
utilized the Voluntary Early Retirement Authority/Voluntary Separation 
Incentive Pay (VERANSIP) to minimize non-voluntary permanent employee 
separations. [See page 15.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. SCOTT
    General Mason. The Army over the past several years has 
aggressively moved to reduce costs and shrink its facility footprint in 
Europe. For example, in 2006 there were 54,000 Soldiers stationed in 
Europe. The Army projects this number to be 30,000 by 2016. This wi1l 
represent a 45% reduction in end strength since 2006. Our total 
facility square footage in Europe is declining from 143 million gross 
square feet (GSF) to 68 million GSF by 2017. This decline amounts to an 
infrastructure reduction of 54% which corresponds closely with the 
reduced end strength and force structure. The Army projects these 
reductions in end strength and infrastructure to be accompanied by an 
approximately 57% reduction in the annual operating budget, which will 
drop from $2.37 billion in 2006 to $1 billion by 2017. [See page 19.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. ENYART
    General Mason. The Army's FY14 Military Construction base budget 
request is $1.615 billion, of which $1.12 billion is for Active Army, 
$321 million is for Army National Guard, and $174 million is for Army 
Reserve. [See page 19.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 16, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. WITTMAN

    Mr. Wittman. How will utilization of regionally aligned forces 
(RAFs) support the new strategic guidance? How will they be funded? Is 
the RAF construct viable under sequestration? What is the Guard and 
Reserve's role?
    General Huggins. The 2010 U.S. National Security Strategy calls for 
strong security partnerships with allies and partners. In response, the 
2012 Department of Defense Strategic Guidance directed the U.S. 
military services to strengthen allied and partner relationships, and 
to pursue new partnerships. Knowing that these partnerships are 
fundamental to regional and global security, and to ensure better and 
faster Army responsiveness to Combatant Command security cooperation 
and operational requirements, the Chief of Staff of the Army directed 
the Army to improve its ability to be globally responsive and 
regionally engaged. The goal of regional alignment is to provide 
Combatant Commands (CCMDs) with reliable and responsive capability to 
meet requirements across the full range of military operations, to 
include operational missions in response to crisis or contingency, 
operations support, theater security cooperation activities, and 
bilateral and multilateral military
exercises.
    --``Resource requirements for the successful implementation of RAF 
will be managed within existing Army resource levels'' (HQDA EXORD 
dated 21 December 2012). In other words, the cost to implement the RAF 
concept will be a zero sum gain with offsets required to cover major 
structural changes (APS, OCO to Base, Army Language and Culture 
Enterprise etc).
    --In contrast, the demand costs associated with implementing the 
National Strategy are the responsibility of the CCMDs. Regional 
Alignment of Forces does not create new, unfunded requirements but, 
rather, offers an efficient, focused, Army resource to fulfill 
existing, funded requirements. Rather than creating demand, RAF better 
focuses Army capabilities against existing demand. It is a better 
sourcing solution for forces, not the funding.
    --While RAF implementation is viable under sequestration, the 
ability for the concept to reach full potential in supporting CCMD 
requirements will be significantly delayed across additional budget 
years. This is mainly due to decreased funding for CCMD programs, 
exercises, DoS Title 22 programs, as well as the well-documented 
problems with decisive action training for units in FY13.
    --RAF are drawn from the Army Total Force (Active Army, Army 
National Guard and Army Reserves). Many elements of the Reserve 
Component are already regionally aligned (civil affairs) and the Army 
National Guard State Partnership Program is seen as both complementary 
and supporting the Regional Alignment of Forces concept.
    Mr. Wittman. To the extent that you can in this setting, can you 
explain the impact of current anti-access/area-denial (A2/AD) 
capabilities on the Army's ability to execute its mission? How is the 
Army mitigating/compensating for A2/AD in the
region?
    General Huggins. The proliferation of current A2/AD capabilities 
around the globe results in greater importance and need for Army 
engagement and shaping activities with partners and allies to build new 
and strengthen current relationships to assure access necessary to 
conduct potential operations.
    The Army has developed the Regionally Aligned Force concept, which 
focuses capabilities across the Active Component, Army National Guard, 
and Army Reserve to support combatant commanders. Regionally aligned 
forces will improve partnering capabilities: Daily steady-state 
activities with partner armies are potentially the Army's most 
significant and durable contribution to mitigating A2/AD challenges. 
They maintain the foundations for basing and operational access 
necessary to prevail should a conflict occur. The National Guard State 
Partnership Program continues to be one of the Army's most valuable 
investments in ensuring operational access throughout the world.
    The Army will habitually align corps and division headquarters, 
where practical, to geographic combatant commands for planning and 
mission preparation in accordance with the combatant commander's 
priorities. These units will also complement existing capabilities at 
the theater army level for providing Joint Force Capable Headquarters 
to those combatant commands.
    The Army provides invaluable contributions to overcoming A2/AD 
capabilities, from the Patriot and Terminal High Altitude Area Defense 
systems, providing much of the Joint Force's administrative and 
logistics backbone, as well as combat and support contributions for the 
Global Response Force.
    The Army is continuing to refocus its training institutions back 
towards developing the skills necessary for successful combined arms 
maneuver in an A2/AD environment, while retaining the base of knowledge 
gained in stability operations. In support of U.S. Pacific Command the 
Army maintains a forward presence with eight Active Component Brigade 
Combat Teams, twelve batteries of Patriots, and theater enabling units. 
The combination of regionally aligned forces and those trained in 
combined arms maneuver deter regional threats while reassuring allies, 
before a conflict even starts. The foundations laid in regional 
engagement are essential in enabling the Joint Force to prevail against 
A2/AD challenges should the need arise.

    Mr. Wittman. To what level are you able to repair your equipment 
now? Can you achieve the maintenance standards required in technical 
manual 10-20, or are you having to settle for less? If less, what is 
the impact of not achieving 10-20?
    General Huggins, General Mason, and General Visot. The Army 
currently maintains ground equipment for units preparing to deploy or 
forward deployed at Technical Manual (TM) 10/20 standards. The Army 
maintains aviation equipment at Fully Mission Capable (FMC). Due to the 
effects of budget uncertainty and sequestration, for all other ground 
equipment (including missile systems, communications and electronic 
systems and watercraft) the TM 10/20 maintenance standard is waived and 
the equipment is maintained at a Fully Mission Capable Plus Safety 
standard.
    As a result of maintaining ground equipment at FMC Plus Safety, the 
Army will defer approximately $392M in Operations & Maintenance, Army 
funds from FY13 to FY 14. Deferred maintenance will impact future Army 
readiness if not addressed in subsequent years. Capacity constraint 
limits Army's ability to address deferred maintenance in a single year 
and could require 2-3 years to restore selective ground equipment to TM 
10/20 standards.

    Mr. Wittman. Does sequestration call into question our ability to 
maintain an Operational Reserve? What would be the impacts of reverting 
to a Strategic Reserve?
    General Visot. Yes, sequestration, by reducing programmed funding 
in the President's Budget, adversely affects personnel, training and 
maintenance of our equipment and thereby impedes readiness of our 
Soldiers and units. As a consequence, sequestration does indeed hinder 
our ability to maintain an Operational Reserve. Reversion to a 
Strategic Reserve would clearly increase the risk of our not being able 
to promptly deploy ready Army Reserve Soldiers in support of various 
contingencies that we might otherwise be more than able to do.
    The sequester has had the biggest impact on the Army Reserve due to 
the 2d and 3rd order effects of cancelled training for Active Component 
(AC) units into which Reserve Component units were integrated. Key 
cancelled AC training includes:
        --6 x Combat Training Center Rotations affecting 1537 Soldiers.
        --2 x Major Functional Exercises affecting 2058 Soldiers.
        --Reduced 2013 ODT requirements affecting 429 Soldiers.
    It is crucial that the Army Reserve continue to be resourced as an 
Operational Reserve in order to continue to provide critical life-
saving and life-sustaining capability to all Services and all 
components.

    Mr. Wittman. Does sequestration call into question our ability to 
maintain an Operational Reserve? What would be the impacts of reverting 
to a Strategic Reserve?
    General Fountain. Yes. Sequestration is an important factor in 
determining whether the Army National Guard (ARNG) remains an 
operational force. Ongoing loss of readiness due to sequestration may 
have far-reaching implications for overseas missions as well as no-
notice emergencies here at home.
    In its first few weeks, sequestration has led the Army to off-ramp 
the mobilization of ARNG units in the remainder of FY 13 in order to 
use base program funds to resource Unfunded Requirements and avoid the 
expense of mobilizing these troops. Subsequently, the Army has 
announced its intentions to off-ramp ARNG units scheduled for 
mobilization in FY14. An unintended consequence of off-ramping is the 
hardships it creates for Citizen Soldiers and their families who have 
already made major life decisions in preparation for the deployment.
    Regular, predictable employment is critical to leader development 
and maintaining the operational force. Loss of deployment and training 
opportunities deprives ARNG units and Soldiers of valuable operational 
experience, which directly impacts future ability to conduct both 
overseas and domestic missions. It is the readiness to conduct wartime 
missions that enables the ARNG to execute domestic operations with 
skill and efficiency. Of course, the ARNG will always respond 
domestically, but the response may be slowed due to lower levels of 
readiness in equipment, personnel and training.
    As a result of sequestration, the Army has cancelled rotations at 
its Combat Training Centers for all but deploying units, leading to the 
cancellation of rotations for several ARNG Brigade Combat Teams and 
enabling units. CTC rotations occur less frequently for the Guard than 
for Active Component forces; if missed, Guard leaders may not have 
another opportunity to gain this training for several years, if ever. 
In terms of equipping, another key measure of readiness, the Army 
National Guard's Equipment On Hand (EOH) and modernization rates are 
expected to decline as sequestration causes the Army to procure less 
new equipment in coming years. Sequestration has also led to the 
postponement of Field and Depot level reset of equipment, both, 
limiting the availability of thousands of items of equipment in the 
present, and creating a maintenance backlog which will take time and 
money to address in the future.
    The Army's funding of Contract Logistical Support (CLS) has been 
affected by the sequestration with flying hours for UH-72 helicopters 
reduced by 30%. The FY 13 programmed funding plan will also curtail new 
UH-72 fielding and may administratively ground the aircraft due to 
total loss of contract logistical support this summer. The UH-72 is 
critical in providing support to Southwest Border and counterdrug 
operations, flight training courses, medical evacuation and other civil 
support requirements.
    Sequestration is expected to have an impact on the roughly 45% of 
the ARNG full-time force who are dual-status Military Technicians. 
While technically civilian employees, the 27,100 dual-status military 
technicians in the Army Guard are required to be members of the units 
in which they serve and wear their military uniform to work every day. 
They perform the vast majority of maintenance on Guard ground and 
aviation equipment, and perform myriad other tasks that make the 83% of 
the Guard which serves part-time a capable and ready force. The 
expected 11-day furlough of Technicians will be another drag on 
readiness, particularly the readiness of Guard vehicles for short-
notice or no-notice domestic response missions.
    OPTEMPO funding is another area that will be impacted 
significantly. As a result, units will have fewer tank miles and flying 
hours, less money for repair parts, and less time to train to the 
required level of proficiency. This will lead to an increase in the 
amount of post-mobilization training required in order to prepare units 
for operational employment.
    The Congress' decade-long investment in the Army National Guard has 
been substantive and sustained. It can be measured in billions of 
dollars that have raised equipment on hand levels to historic highs, 
recruited quality Soldiers, and provided them with superb training. The 
payoff can be seen in more than 518,000 separate Soldier deployments of 
Citizen Soldiers, the overwhelming majority in support of Operation 
Iraqi Freedom and Operation Enduring Freedom. When deployed, numerous 
experts attest that Guard Soldiers perform on a par with their Active 
Component counterparts. When not deployed, the Nation retains this 
superb capability at about a third of the cost of a full-time Soldier. 
In fact, when factoring in the relative costs of retirement and the 
lower usage of housing and medical benefits, Guard Soldiers cost less 
than the Active Component even when deployed. Given this relative 
value, it would be a terrible waste of resources to allow the Army 
National Guard, a superb operational force, to revert to its previous 
status as a Strategic Reserve. It takes only a continued modest 
investment to maintain an operational force when compared to the 
Strategic Reserve the Nation had prior to 9/11.
    Mr. Wittman. To what level are you able to repair your equipment 
now? Can you achieve the maintenance standards required in technical 
manual 10-20, or are you having to settle for less? If less, what is 
the impact of not achieving 10-20?
    General Fountain. The Army National Guard (ARNG) objective is to 
maintain all equipment at a 10/20 level of readiness. The ARNG is 
currently maintaining overall fleet readiness rates at levels which are 
comparable to the last five years.
    Due to budget constraints, the Army has authorized commands and 
organizations to begin maintaining ground systems, including missile 
systems (less Patriot missile systems), communications and electronic 
systems and watercraft at ``Fully Mission Capable Plus Safety'' level.
    The ARNG has not adopted this mitigation measure at this time, but 
may consider such mitigations as the impact of constrained budgets 
becomes clearer.
    It is also important to consider the implications of not achieving 
10/20 maintenance standards:
    Delayed or deferred maintenance does not go away. It remains 
required maintenance and builds a backlog which is expensive to 
correct.
    If 10/20 standards are not maintained, the Army National Guard can 
expect lower equipment readiness and mission capabilities. This could 
have a particularly serious impact on the Guard's domestic emergency 
response missions, which--unlike overseas deployments--occur with 
little or no notice time with which to bring equipment up to standards.
    Funding required for delayed maintenance will relationally increase 
with the length of delay.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. BARBER
    Mr. Barber. General Huggins, thank you for your service and your 
testimony today. I understand the Army is in the midst of a precarious 
balancing act due to budget cuts and general uncertainty. The Army must 
determine how best to restructure the force as a result of mandatory 
spending caps while simultaneously maintaining its readiness. 
Meanwhile, General Odierno has mentioned that the Army might need to 
reduce the total Army force by an additional 100,000 service members as 
a result of sequestration. There can be no doubt these cuts will impact 
the Army's ability to carry out its assigned missions. General as you 
know, Ft. Huachuca is in my home district, and the fort carries out the 
important mission of building partner capacity by training foreign 
military officers. General, my question to you is this, how will 
another drawdown affect the Army's ability to continue the important 
mission of building partner capacity, such as the training offered at 
Ft. Huachuca?
    General Huggins. The Army is committed to providing the best 
possible training for foreign military officers, through any end 
strength reductions, and to continue building international 
partnerships through this training. Army force structure reductions may 
influence the size of the institutional training force; however, those 
decisions have yet to be made.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOBIONDO
    Mr. LoBiondo. What do you see as the impact of budget cuts to 
readiness and how industry and the Army can move forward in partnership 
to sustain the industrial base and provide best value to the Army? 
Performance Based Logistics programs have demonstrated value and DOD is 
seeking to increase the effective use of PBLs. How do you see the Army 
optimizing readiness with PBLs?
    General Huggins, General Mason, and General Visot. The budget cuts 
present a significant challenge to the Army's ability to maintain 
readiness and will require tough choices for how to best apply limited 
resources to optimize readiness as the Army navigates through the 
difficulties of transitioning from an Army at War to an Army preparing/
training for the next contingency.
    The challenges of this fiscally uncertain environment will require 
the Army to explore new partnerships and expand existing ones with 
industry to achieve the best value. The Army has consistently 
recognized the need to build strong relationships, either with Sister 
Services, Allies, or the Host Nation populace, and is committed to 
achieving best value in acquisition programs, through performance based 
agreements to include sustainment throughout equipment lifecycles.
    This commitment to best value is demonstrated through existing 
Public-Private Partnerships and Performance-Based Logistics product 
support strategies, as well as support of the Department of the 
Defense's (DOD) Better Buying Power initiative. Additionally, the Army 
recognizes the benefits of PBLs such as the AH-64 Apache Helicopter and 
the Patriot Missile Defense System, which have optimized readiness and 
life cycle costs. The Army is a key member of a DOD led Integrated 
Project Team responsible for evolving current PBL product support 
strategies to the ``Next Generation'' PBL that will broaden usage of 
PBLs as the product support strategy of choice across the DOD.

    Mr. LoBiondo. What do you see as the impact of budget cuts to 
readiness and how industry and the Army can move forward in partnership 
to sustain the industrial base and provide best value to the Army? 
Performance Based Logistics programs have demonstrated value and DOD is 
seeking to increase the effective use of PBLs. How do you see the Army 
optimizing readiness with PBLs?
    General Fountain. Budget cuts present a significant challenge to 
the Army's ability to maintain readiness and will require tough choices 
for how to best apply limited resources as the Army navigates from a 
wartime to a peacetime--but still actively engaged--standing.
    The challenges of this fiscally uncertain environment will require 
the Army to explore new partnerships and expand existing ones with 
industry to achieve the most value. The Army has consistently 
recognized the need to build strong relationships, either with sister 
Services, allies, or the host nation populace. The commitment to 
achieving best value in acquisition programs includes sustainment 
throughout the lifecycles of systems, services, or products. This 
commitment to best value is also demonstrated through existing Public-
Private Partnerships and Performance-Based Logistics (PLB) product 
support strategies, as well as support of the Department of the 
Defense's (DOD) Better Buying Power initiative.
    Additionally, the Army recognizes the benefits of PBLs through 
existing PBLs such as the AH-64 Apache Helicopter and the Patriot 
Missile Defense System, and continues to look for new PBL 
opportunities. Finally, the Army is a key member of a DOD-led 
Integrated Project Team responsible for evolving current PBL product 
support strategies to the ``Next Generation'' PBL that will broaden 
usage of PBLs across the DOD.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
